         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report

Contract Awards to Small
Businesses Under the Mentor-
Protégé Program




DOE/IG-0898                      November 2013
                                 Department of Energy
                                    Washington, DC 20585
                                       November 20, 2013


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Contract Awards to Small
                         Businesses Under the Mentor-Protégé Program"

BACKGROUND

The goal of the Department of Energy's Mentor-Protégé Program is to provide an opportunity for
eligible small businesses to receive developmental assistance in business and technical areas.
The Program is designed to improve capabilities to perform contracts and subcontracts for the
Department and other Federal agencies. The Small Business Act, as amended, requires the
Federal Government to establish contracting goals, with at least 23 percent of all prime contracts
awarded to small businesses. Based on the Department's business model, this goal translated to
 7 percent for prime contracts and 52 percent for subcontracts for Fiscal Year 2013.

The Department utilizes the Mentor-Protégé Program to increase the participation of small
businesses as prime contractors, as well as subcontractors to prime contractors. Department
prime contractors, as mentors, enter into agreements with eligible protégé firms to provide
developmental assistance to enhance the business and technical capabilities of the protégé firms
and to promote and foster long-term business relationships. During calendar years 2010, 2011
and 2012, the Department's prime contractors had over 100 mentor-protégé agreements in place.
The objective of this audit was to determine whether the Department effectively managed the
Program.

RESULTS OF AUDIT

Our audit disclosed a number of weaknesses in the Department's management of its Mentor-
Protégé Program. Specifically, we identified:

   •   Thirteen firms that were permitted to participate in the program even though they already
       appeared to possess the capabilities typically developed by small businesses, prior to
       selection as protégés. Specifically, each of these small businesses had already completed
       Federal procurement transactions totaling between $7 million and $111 million prior to
       joining the Program.

   •   Six mentor-protégé agreements that exceeded the recommended terms of up to 6 years.
       In fact, several agreements lasted as long as 10 years.
                                                 2


   •   Four protégés that successfully graduated from the Program at one Department site were
       permitted to subsequently enter into similar mentor-protégé agreements at other sites.

These findings, coupled with the practical limitations on the number of available Program slots,
led us to conclude that small businesses most suitable for inclusion may not have had the
opportunity to participate. This occurred because the Department did not have an adequate
control structure in place for effective oversight of the Program. Specifically, the Department
lacked sufficient policies to assist mentors in the solicitation and selection of protégés, did not
monitor the progress of each protégé throughout the duration of the agreement, and did not
maintain an adequate tracking system to accurately account for all protégé activities.

The goals of the Mentor-Protégé Program are laudable and have been recognized as such by the
small business community. It is clearly in the interest of the Department and, for that matter,
small businesses, to ensure that: (1) the most suitable small businesses are selected to be
protégés; and (2) that the benefits of the Program are broadened by allowing participation only
for the length of time necessary to fulfill the required tasks. As such, we have made
recommendations designed to improve the Department's implementation and execution of the
Program.

MANAGEMENT REACTION

Management concurred with the report's recommendations and identified planned actions to
address our recommendations. We consider management's comments responsive to the report's
recommendations.

Management comments are included in Appendix 3.

Attachment
cc:   Deputy Secretary
      Acting Under Secretary for Science and Energy
      Acting Under Secretary for Nuclear Security
      Acting Under Secretary for Management and Performance
      Chief of Staff
      Director, Office of Small and Disadvantaged Business Utilization
REPORT ON CONTRACT AWARDS TO SMALL BUSINESSES UNDER
THE MENTOR-PROTÉGÉ PROGRAM


TABLE OF
CONTENTS
Mentor-Protégé Program

Details of Finding ..................................................................................................................1

Recommendations and Management Response .....................................................................4

Auditor Comments .................................................................................................................5


Appendices

1. Objective, Scope and Methodology ..................................................................................6

2. Prior Report .......................................................................................................................8

3. Management Comments ...................................................................................................9
CONTRACT AWARDS TO SMALL BUSINESSES UNDER THE
MENTOR-PROTÉGÉ PROGRAM


Mentor-Protégé Program

The Department of Energy (Department) had not always effectively managed the Mentor-
Protégé Program. The goal of the Department's Program is to provide an opportunity for eligible
small businesses to receive developmental assistance in business and technical areas in order to
improve capabilities to perform contracts and subcontracts for the Department and other Federal
agencies. However, our review of protégés at the Oak Ridge Reservation, the Savannah River
Site and the Hanford Site found that several small businesses had received significant Federal
awards prior to becoming a protégé. Additionally, six mentor-protégé agreements were for
durations that appeared excessive. Also, in four instances small businesses had graduated from
the Program at one site and later participated at another Department site under similar mentor-
protégé agreements.

                                      Prior Federal Awards

Several protégés at the three sites had received significant Federal procurement awards prior to
becoming a protégé and, therefore, appeared to already possess the capabilities needed to
compete for contracts and subcontracts at the Department and other Federal agencies. These
capabilities are typically developed by small businesses through participation in the Program.
For example, developmental assistance to be provided to one protégé at the Savannah River Site
included the mentor assisting the protégé with developing knowledge and expertise in areas of
procurement and Federal Acquisition Regulation contracts. Assistance included the
development of technical and business processes, such as proposal development, accounting
systems, cost estimating, project management systems and labor relations. However, our review
of Federal procurement records disclosed that the small business had numerous Federal
procurement transactions prior to becoming a protégé at the Savannah River Site, actions totaling
more than $110 million, including many Department procurements.

Other protégés received significant Federal awards, many with the Department, prior to joining
the Program, including a protégé at the Hanford Site that had Federal procurement transactions
totaling more than $102 million. Similarly, we observed one protégé at the Y-12 National
Security Complex and one at the Oak Ridge National Laboratory that had received previous
Federal awards of more than $61 million and $47 million, respectively.

Furthermore, an additional nine protégés at the Oak Ridge Reservation, the Savannah River Site,
and the Hanford Site had also received Federal awards prior to entering the Program, totaling
between $7 million and $28 million. The fact that these protégés all received significant Federal
awards prior to entering the Program tends to indicate that they should have already had the
capabilities that are typically developed by participation in the Program. As a result, these
businesses may not have been the most suitable candidates for the Program.

                      Lengthy and Successive Mentor-Protégé Agreements

We also found that the duration of several mentor-protégé agreements appeared excessive.
Specifically, six protégés had participated in the Department's Program and had agreements that


Page 1                                                                        Details of Finding
exceeded 7 years, including two in excess of 8 years and three in excess of 10 years. Many of
these agreements had no substantial change in the developmental assistance required by the
protégé. Once a protégé is selected under the Program, an agreement must be executed between
the mentor and the protégé and approved by the Office of Small and Disadvantaged Business
Utilization (OSDBU). This agreement establishes the needed assistance to be provided by the
mentor and the protégé's commitment to work with the mentor to support the mentor's programs
and to keep communications open. According to the Program Manager, while no written formal
policy had been implemented, it was the Department's practice to recommend a 2-year initial
agreement with a maximum of four 1-year extensions.

In addition, four protégés completed the Program at one Department site and subsequently
entered into similar mentor-protégé agreements at other sites. For example, we observed that a
protégé graduated from the Program at Oak Ridge National Laboratory and subsequently
participated in the Program at the Savannah River Site. Similarly, another protégé graduated
from the Program at the Y-12 National Security Complex and then participated in the Program at
the Oak Ridge National Laboratory. While reviewing agreements for these protégés, we noted
that the assistance sought was similar to that of the previous agreement and focused on
promoting the technical and business capabilities through developmental programs, assisting in
marketing and proposal development, and networking with potential customers for the protégé's
services.

Guidance, Monitoring and Tracking

These issues occurred because the Department and its prime contractors did not have an adequate
control structure in place for effective oversight of the Program. Specifically, mentors did not
always give adequate consideration to protégés' existing capabilities when selecting them for the
Program. In addition, the Department lacked sufficient policies to assist mentors in the
solicitation and selection of protégés, did not monitor the progress of each protégé throughout
the duration of the agreement and did not maintain an adequate tracking system to accurately
account for all protégés.
                                       Policies and Procedures

The Department lacked formal written policies and procedures to assist mentors in the
solicitation and selection of protégés. More specifically, the Department's OSDBU did not have
policies and procedures in place to ensure that the most suitable protégés were identified and
placed into the Program. Department requirements are listed in Department of Energy
Acquisition Regulation (DEAR) Subpart 919.70, which outlines the general requirements for
both the mentor and protégé and emphasizes that only small businesses should be eligible
according to socioeconomic designations. Among other things, the protégés must:

   •   Be eligible for receipt of Government contracts;

   •   Have been in business for at least 2 years prior to application for enrollment into the
       Program; and




Page 2                                                                          Details of Finding
   •   Be able to certify as a small business according to the North American Industry
       Classification System for the services or supplies the protégé will be providing under its
       subcontract with the mentor.

We reviewed the Small Business Administration's Mentor-Protégé Program, a Federal prime
contract-based program, and found that it contrasted significantly with that of the Department.
Specifically, the Small Business Administration had established stringent requirements for
participation in its Mentor-Protégé Program. The protégé must meet the following criteria:

   •   Be in the developmental stage of the 8(a) Business Development program;

   •   Have never received an 8(a) contract;

   •   Be less than half the standard size of a small business based on its primary North
       American Industry Classification System code; and

   •   Be in good standing in the 8(a) Business Development program and be current with all
       reporting requirements.

We also identified some disincentives for Department mentors to select protégés that are most
suitable for participation in the Program. The Department routinely includes a contract clause
addressing the Program in its prime contracts for site operations. Under cost-plus-award-fee
contracts, a mentor firm may earn award fees associated with its performance as a mentor. Thus,
some mentors appeared to select protégés that had already shown the ability to successfully
perform on a significant number of contracts. For example, one mentor informed us that it
required small businesses to have had a previous contract with the mentor prior to being selected
as a protégé. Another mentor stated that it had selected its respective protégé because the
protégé had successfully performed on the prior contract with the mentor.

Furthermore, protégé designation can be beneficial to both parties. Mentors may count mentor-
protégé agreements towards meeting small business subcontracting goals. The DEAR allows
mentors to award non-competitive subcontracts to the protégé on the sole basis of being a
protégé, which was the case for the majority of protégé awards we reviewed. In fact, many
mentors we reviewed guaranteed protégés subcontracts ranging from $100,000 to $4 million.
The mentor is then allowed to count these awards towards its established small business
subcontracting goals.

                     Monitoring and Tracking Mentor-Protégé Agreements

In addition, OSDBU did not effectively monitor the progression of protégés throughout the
mentoring process. DEAR 919.7013 states that the mentor must submit progress reports to the
Department's Mentor-Protégé Program Manager semi-annually. An OSDBU official stated that
the process is to retain progress reports in the official case file once a semi-annual progress
report is received. However, we found no evidence that OSDBU received and reviewed these




Page 3                                                                         Details of Finding
reports to follow up on the progress of the protégés. In fact, progress reports were not included
in 19 of 20 official protégé case files we reviewed. One mentoring official stated that he did not
complete progress reports on his protégés.

The Department also lacked an effective tracking system capable of identifying mentor-protégé
agreements that appeared excessive in duration or were awarded after successfully completing
the Program at another site. OSDBU's limited tracking system included records for 153 mentor-
protégé agreements. However, we identified 15 agreements that were not included in the
tracking system and numerous records in which pertinent information was not included.

Opportunities for Improvement

Without defined policies and procedures in place to help sites appropriately select small
businesses for participation in the Program, mentors may continue to non-competitively award
contracts to businesses already capable of receiving contracts and subcontracts at the Department
and other Federal agencies. As a result, small businesses most suitable for participation in the
Program may not be receiving the benefits of the Department's Program and limited mentoring
resources will not be allocated in the most effective manner. Furthermore, by focusing on the
most suitable small businesses to participate in the Program, the Department will increase the
number of viable small businesses that could be utilized by the Department and its contractors.
Thus, it is imperative that the Department manage the Program to ensure that small businesses
most suitable for participation are selected to be protégés and only for the length of time
necessary to fulfill the required tasks.

RECOMMENDATIONS

To strengthen controls over the Mentor-Protégé Program and ensure that the Department and its
contractors are reaching the most suitable small businesses for participation in the Program, we
recommend that the Director, Office of Small and Disadvantaged Business Utilization, in
conjunction with each cognizant Program Secretarial Officer:

    1. Develop detailed policies and procedures to ensure sites select small businesses most
       suitable for participation in the Program;

    2. Establish effective monitoring of the progression of protégés throughout the mentoring
       process; and

    3. Improve the tracking system for mentor-protégé agreements to ensure that it is complete,
       accurate and accessible across the Department's complex.

MANAGEMENT RESPONSE

Management concurred with the report's recommendations and indicated that corrective actions
were planned to address the issues identified. In response to Recommendation 1, the OSDBU
stated that it will revise current policy to provide a definition for small businesses most suitable
for participation in the program. Regarding Recommendation 2, OSDBU stated that it will


Page 4                                        Recommendations and Management Response
further develop procedures to ensure the Mentor-Protégé Program Manager submits semi-annual
reports to the cognizant contracting officer and that mentors submit progress reports semi-
annually. Addressing Recommendation 3, OSDBU indicated that it will implement numerous
changes to better track and monitor agreements from approval to expiration and that the tracking
system will be made available Department-wide.

AUDITOR COMMENTS

The Department's planned corrective actions are responsive to our recommendations.

We modified our report, as necessary, in response to management's comments. Management's
comments are included in Appendix 3.




Page 5                                                                      Auditor Comments
Appendix 1


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of the audit was to determine whether the Department of Energy (Department)
effectively managed its Mentor-Protégé Program.

SCOPE

This audit was conducted between July 2012 and November 2013, at the Office of Small and
Disadvantaged Business Utilization (OSDBU) Headquarters in Washington, DC, the Oak Ridge
Reservation in Oak Ridge, Tennessee, the Savannah River Site in Aiken, South Carolina, and the
Hanford Site in Richland, Washington. The scope included the Department's management of
small business awards under the Mentor-Protégé Program that were in effect during calendar
years 2010, 2011 and 2012.

METHODOLOGY

To accomplish our audit objective, we judgmentally selected a sample of 3 Department sites
from a universe of 18 sites. This selection was based on the number of mentor-protégé
agreements in effect at the three field sites visited. Because a judgmental sample of Department
sites was used, results are limited to the sites or locations selected. Additionally we:

   •   Reviewed applicable laws and regulations pertaining to the execution of contracts
       awarded to small businesses;

   •   Reviewed prior reports issued by the Office of Inspector General;

   •   Interviewed officials at OSDBU and the three sites we visited to gain an understanding of
       their roles and responsibilities as well as procedures for managing the Program;

   •   Obtained a listing of mentor-protégé agreements from OSDBU and compared
       information in the listing to data received directly from Department sites;

   •   Obtained and reviewed all 60 mentor-protégé agreements at the 3 sites visited,
       representing approximately 59 percent of the agreements in effect at the 18 Department
       sites during the audit period;

   •   Obtained and reviewed protégé subcontracts at the three sites we visited; and

   •   Searched the Federal Procurement Data System for prior Federal procurements to
       protégés at the three sites we visited.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain


Page 6                                                    Objective, Scope and Methodology
Appendix 1 (continued)

sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Accordingly, the audit included
tests of controls and compliance with laws and regulations necessary to satisfy the audit
objective. In particular, we assessed compliance with the GPRA Modernization Act of 2010 and
found that performance measures had not been established for the Mentor-Protégé Program.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We did rely on computer-processed
information in the Federal Procurement Data System to achieve our audit objective. We
confirmed the validity of the data by comparing it, where appropriate, to information taken from
a Department acquisition system.

We held an exit conference with Office of Small and Disadvantaged Business Utilization
officials on November 20, 2013.




Page 7                                                    Objective, Scope and Methodology
Appendix 2


                                    PRIOR REPORT

  •   Audit Report on Review of the Department of Energy's Contract with AHTNA
      Government Services Corporation Contract No: DE-AC52-04NA25282 (OAS-L-09-01,
      October 2008). This review found that the AHTNA Government Services Corporation
      (AHTNA) contract, an Alaskan Native Corporation, was managed in accordance with
      Small Business Administration (SBA) 8(a) program requirements. However, the review
      noted certain issues that, if corrected, could enhance the National Nuclear Security
      Administration's (NNSA) management of Alaskan Native Corporation contracts. In the
      case of AHTNA, the review found that NNSA had not properly monitored compliance
      with subcontracting limitations and did not always submit contractual documents to the
      SBA. Furthermore, NNSA did not adhere to requirements designed to ensure that the
      contractor performed the required amount of work on the contract. Specifically, NNSA
      did not have a formal documented process for monitoring the percentage of work
      performed by AHTNA and reporting the results to the SBA. The review also found that
      NNSA was not providing the SBA with all contractual documents required by the Code
      of Federal Regulations and the Partnership Agreement between the Department and the
      SBA.




Page 8                                                                          Prior Report
Appendix 3


             MANAGEMENT COMMENTS




Page 9                             Management Comments
Appendix 3 (continued)




Page 10                  Management Comments
                                                                    IG Report No. DOE/IG-0898

                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

   Your comments would be appreciated and can be provided on the Customer Response Form.
